.,"".:;~"''f.sl.Rvrc~
                    es.r_,"'<tA       DEPARTMENT OF HEALTH A...I\JD    HU:tvlf\.1~ SERVICES
~ J~
   L.,
'0·<:    :' : : i-
                                  OFFICE OF INSPECTOR GENERAL
   "'"tv.Cifl'am 	                                    WASHINGTON, DC 20201



                                                      IJUL 0 1 2013

        TO: 	                     Marilyn Tavenner
                                  Administrator
                                  Centers for Medicare & Medicaid Services

                                        /S/
        FROM:                     Stuart Wrigllt
                                  Deputy Inspector General
                                    for Evaluation and Inspections


        SUBJECT: 	 Memorandum Report: Some States Improperly Restrict Eligibility for
                   Medicaid Mandatory Home Health Services, OEI-07-13-00060


        This memorandum report assesses the extent to which States have policies that
        improperly restrict eligibility for Medicaid mandatory home health services to
        homebound individuals. Under the mandatory home health benefit, States must provide
        certain home health services to Medicaid beneficiaries who are entitled to nursing facility
        care. Federal regulations prohibit the arbitrary denial or reduction of the amount,
        duration, and scope of a required service on the basis of a beneficiary's diagnosis, type of
        illness, or condition. In a 2000 policy letter, the Centers for Medicare & Medicaid
        Services (CMS ) notified State Medicaid agencies that restricting eligibility for home
        health services to homebound individuals violates these regulations because (1) the scope
        of the medical assistance made available to non-homebound individuals is reduced and
        (2) such restrictions result in services being denied on the basis of a beneficiary's
        condition (i.e. , not being homebound).

        SUMMARY

        For all States, we reviewed the sections of the Medicaid State plans (State plans) and
        current State policies that define eligibility for the mandatory home health benefit.
        Eleven States have improper eligibility restrictions on the mandatory home health benefit
        in the policy documents we reviewed. The written policy for one of these eleven States
        made exceptions to its restrictions in certain circumstances. For two other States, staff
        explained that the restrictions had been incorrectly included in their States' policies and
        were not being enforced.
Page 2 – Marilyn Tavenner


BACKGROUND

Medicaid Home Health Services
Sections 1902(a)(10)(D) and 1905(a)(7) of the Social Security Act (SSA) establish the
mandatory home health benefit in the Medicaid program. Under the mandatory home
health benefit, States must provide the following services to Medicaid beneficiaries who
are entitled to nursing facility care: nursing care, home health aides, and medical
supplies, equipment, and appliances. 1 Under this benefit, States may also provide
optional home health services, including physical therapy, occupational therapy, and
speech pathology and audiology services. States must offer mandatory home health
services to Medicaid beneficiaries who are entitled to nursing home care, but States may
not condition receipt of services on the need for institutional care. 2 In 2011, States spent
$4.9 billion on mandatory home health services. 3, 4

Medicaid State Plans
State plans detail how each State administers its Medicaid program, what services will be
covered for which eligibility groups, and how services will be paid. To change any part
of an existing State plan, a State must submit a State plan amendment (SPA) to the
appropriate CMS regional office. CMS reviews the SPA and either approves it or
communicates with the State regarding necessary changes. 5 Once an SPA is approved, it
becomes part of the State plan.

State Restrictions on Eligibility for Home Health Services
Federal regulations require that Medicaid services made available to any categorically or
medically needy individual shall not be less in amount, duration, or scope than the
medical assistance made available to any other such individual. 6 Furthermore, Federal
regulations prohibit the arbitrary denial or reduction of the amount, duration, and scope
of a required service on the basis of a beneficiary’s diagnosis, type of illness, or
condition. 7

1
  SSA §§ 1902(a)(10)(D) [42 U.S.C. 1396a] and 1905(a)(7) and 42 CFR §§ 440.70 and 441.15. For the
purpose of this report, we refer to all services furnished under these authorities as “mandatory home health
services.”
2
  42 CFR § 441.15(c). Mandatory home health services must be covered for all individuals who are
eligible for nursing facility care as defined in the State Medicaid plan. States cannot limit these services to
beneficiaries whose condition is such that they require nursing home care.
3
  This was the most recent complete data on Medicaid home health expenditures available at the time of
this report. CMS, Financial Management Report for FY 2002 through FY 2011, total computable
expenditures for home health services.
4
  States can also provide home health services through Medicaid waivers. Under waiver authority, a State
can define home health services and identify target populations in a way that would be prohibited for
mandatory home health services. For example, under a § 1915(c) home- and community-based services
waiver, a State would provide services only to those who qualify for nursing home care, could include
home services not generally covered under 42 CFR § 441.15, and could waive the comparability
requirements at 42 CFR § 440.240(b) to alter the scope of services for the target population. For this
reason, our report focuses on the mandatory State Plan home health benefit and excludes home health
services furnished under other Medicaid authorities.
5
  42 CFR §§ 430.14, 430.15, and 430.16.
6
  SSA § 1902(a)(10)(B); 42 CFR § 440.240(b).
7
  42 CFR § 440.230(c).


Restrictions of Home Health Services to Homebound Individuals (OEI-07-13-00060)
Page 3 – Marilyn Tavenner



In July 2000, CMS released a State Medicaid Director letter summarizing its efforts to
review Federal policies to ensure fulfillment of the Americans with Disabilities Act. 8
This letter stated that, although Medicare requires beneficiaries to be homebound to
qualify for home health services, 9 imposing a homebound requirement on Medicaid home
health benefits violates Medicaid regulations related to “amount, duration, and scope of
services” at 42 CFR § 440.230 and “comparability of services” at 42 CFR § 440.240. In
July 2011, CMS published a Notice of Proposed Rulemaking that would revise Medicaid
regulations to clarify that home health services cannot be restricted to individuals who are
homebound or to services furnished in the home; the rule had not yet been finalized at the
time of this report. 10

CMS has taken action regarding improper eligibility restrictions in at least one State.
CMS notified the Missouri Medicaid program in 2005 and again in 2009 that its
restriction of home health services to homebound individuals was a violation of Federal
law. In February 2010, CMS notified the State that it intended to withhold a portion of
Federal reimbursement for home health services until the State submitted (and CMS
approved) an SPA to bring it into compliance with Federal requirements. 11 Missouri
submitted an amendment to its State plan removing the restriction.

METHODOLOGY

This evaluation included all 50 States, the District of Columbia, and 3 Territories:
Puerto Rico, Guam, and the U.S. Virgin Islands. 12 (For the purpose of this report, we
refer to these 54 entities as States.) In January and February 2013, we asked each State to
provide us with copies of its policies defining eligibility for mandatory home health
services. 13 These policies included State administrative codes, provider manuals, and
other policy documents. Two States provided additional information regarding their
written policies in response to our request. We also asked each of the 10 CMS regional
offices to provide us with copies of the sections of the current State plan that defined
eligibility for mandatory home health services for each of the States within the office’s

8
  CMS, State Medicaid Director letter, Olmstead Update No. 3, July 25, 2000.
9
  42 CFR § 409.42(a). The Medicare Benefit Policy Manual explains that patients must be “confined to the
home” (i.e. homebound)—meaning that “leaving home would require a considerable and taxing effort”—to
qualify for Medicare home health services. CMS, Medicare Benefit Policy Manual, Pub. No. 100-2, ch. 7,
§ 30.1.1.
10
   76 Fed. Reg. 41032, 41033, and 41038 (July 12, 2011). The proposed rule reflects a 1997 2nd Circuit
Court of Appeals decision that found that the State could not limit coverage of home health services to
those provided at the individual’s residence. See Skubel v. Fuoroli, 113 F. 3d 330 (2d Circ. 1997).
11
   75 Fed. Reg. 10289 (March 5, 2010).
12
   The remaining two Territories—the Commonwealth of the Northern Marianas Islands and
American Samoa—were excluded from this evaluation. These two Territories have waivers under
§ 1902(j) of the SSA that waive all requirements of Title XIX except three provisions relating to the
Federal Medical Assistance Percentage, a dollar limit specific to each Territory, and payments for medical
assistance as defined by § 1905(a) of the SSA. Thus, the requirements prohibiting eligibility restrictions do
not apply to these two Territories. The 1902(j) waiver is available only to these two Territories.
13
   We collected only documents related to the mandatory State Plan home health benefit; we excluded
home health services furnished under other Medicaid authorities from this evaluation.


Restrictions of Home Health Services to Homebound Individuals (OEI-07-13-00060)
Page 4 – Marilyn Tavenner


jurisdiction. We reviewed all of these documents to determine whether any State had
improperly restricted eligibility for mandatory home health services.

Results of this study are based on our review of the State plans and policy documents
provided in response to our request. Our methodology was based on the policy
documents that States submitted in response to our request; we did not question
individual States about whether their documented restrictions were being enforced.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULT

Eleven States have policies that improperly restrict eligibility for mandatory home
health services to homebound individuals
Eleven States have language—one in its State plan and 10 in other State policy
documents—that restricts eligibility for the mandatory home health benefit to homebound
individuals in violation of CMS’s interpretation of the applicable statute and regulation.
These 11 States are Alabama, Arkansas, Indiana, Montana, Nebraska, New Mexico,
North Dakota, Pennsylvania, South Dakota, Utah, and West Virginia. With the exception
of West Virginia, these States apply the homebound restrictions to all services provided
through the mandatory home health benefit. West Virginia makes exceptions to the
homebound restriction when certain skilled medical procedures for adults or skilled
services for infants and children are necessary. In general, the 11 States’ restrictions on
eligibility for home health services were similar to Medicare’s restriction that individuals
must be “confined to the home,” meaning that “leaving home would require a
considerable and taxing effort.” 14

Two of the eleven States, New Mexico and Utah, stated in their responses to our request
that although their policies restricted eligibility for home health services to homebound
individuals, those policies were incorrect and were not being enforced. New Mexico
staff explained that an SPA removing the homebound restriction was being drafted but
had not been submitted to CMS. Utah staff explained that the homebound restriction was
incorrectly included in the provider manual; they further stated that the restriction had
never been enforced and would be corrected in the next revision of the provider manual.

CONCLUSION

According to the documents that States supplied in response to our request, 11 States
have policies that improperly restrict eligibility for their mandatory home health benefit
to homebound individuals. Such restrictions violate CMS’s interpretation of the
requirements of § 1902(a)(10)(B) of the SSA and Federal regulation at
42 CFR § 440.230(c) because the scope of the medical assistance made available to
non-homebound individuals is reduced. Such restrictions further violate CMS’s
14
     42 CFR § 409.42(a); CMS, Medicare Benefit Policy Manual, Pub. No. 100-2, ch. 7, § 30.1.1.


Restrictions of Home Health Services to Homebound Individuals (OEI-07-13-00060)
Page 5 – Marilyn Tavenner


interpretation of Federal requirements at 42 CFR § 440.240(b) because they deny
services on the basis of a beneficiary’s condition (i.e., not being homebound). We
encourage CMS to finalize its proposed rule clarifying that home health services cannot
be restricted to individuals who are homebound or to services furnished in the home.
After finalizing the proposed rule, CMS may want to consider issuing guidance specific
to home health services and homebound eligibility restrictions, explaining why such
restrictions are improper.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-07-13-00060 in all correspondence.




Restrictions of Home Health Services to Homebound Individuals (OEI-07-13-00060)
